Questions Presented

1).

Whether the court of criminal apeal's was invioaltion
or not filing and ruling on all of this petitioner
grounds of error that the Court of Grimial Appeal
choose was not necessarry for him to file and drop
His brady v. Marylandand Actual innocence claim he
file in his first application and was it to be con­
sider successive writ of his prior writ of habeas cor­
pus back in 2012.

2). Wh&tKelEs Napper' case captures the doctrinal Brady v.
MAEylahd claim, by the State dna crime lab destoyed all
the dna sample collect from off of the victim in his
c'sicase.
3). Whether Nappies case captures the doctrinal Brady v.
Maryland, and His Actura.l Innocence claim in Ex'parte
Brooks, 219 SW.3d 9, Tex. Crim. App 2007 and Schlup v.
Delo, 513 U.S. 298, Article 11.07 4 (a) „ (2.) )and Article
11.071 5 (A) 2. (1995). explain in his motion.

(1).

Texas prisoner Lawrence Napper asks this court to issue
a writ of certiotari to review the judgment of the United
States of Appeals for the Fifth Circuit
OPINIONS BELOW
The Fifth Circuit's dismissed the appeal for lack of
jurisdiction and rurther denied all depending motions
referring ,to this petitioner motion for certificsate of
appelability and request and request ‘to file same in excess
pages, riled on August 14, 2020). And the appeal was all
considered closed.
On February 20, 2029 the petitioner filed a document ^
titled (OBJECTION TO FINAL JUDGMENT). The district court construe
the document as a motion for consideration Uhder Federal .rule of Civil procedure 59(e) and denied relief on February 27, 2020.
Therefore , the final day for filing a timely notice of appeal
was Monday, March 30, 2020, because the thirthieth day was a
Saturday. See. FED. APP. P. 26(a)(1)(C)
The lack of a timely notice mandates dismissal of the appeal.
United State v. GariciaiMachado, 845 F.2d 492, 493 (5th Cir'. 1988
Accordingly, the appeal is DISMISSED for want of Jurisdiction,
all pending motions are denied.
The Fifth Circuit of Appeals rendered its decision September
14, 2020. This petition was timely filed. The Supreme Court has
certiorari jurisdiction under 28 U.S.C. 1254(10). The Court of
Appeals possessed jurisdiction under 28 U.S.C. 2254.
CONSTITUTIONAL PROVISION INVOLVED
Amendment VI
In all prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and
district wherein the crime^shall have been commited, which dis^ •
trict shall have been previously ascertained by the law, and
to be informed of the nature and the cause oft^kMcusation;; to be —
confronted with the witnesses against him, to have compulsory pro
cess for obtaining witnesses in his favor, and to have the Assis­
tance of Counsel for the defense.
Amendent XIV
All persons born or naturalized in the United STATES, AND
SUBJECT TO THE JURISDICTION THEREFOR ARE CITTIZENS OF THE United “
Stdtes and of the State wherein they reside. No State shall make
or enforce any law which shall abridge the privieges 3® immunities of citizens of the United State, nor shall any State

(2).

r
deprieve any person within its jurisdiction the equal pro­
tection of the laws.
STATUTORY PROVISIONS INVOLVED
The Anti-Terrorism and effective death
U.S.C. 2254, States;

Penalty Act, 28

(d). An application for a writ of heabeas corpus on behalf of a
person in the custody pursuant to the judgement of a State court
shall not be granted with respect to any claim that was adjuducated on the merits in State ccourt proceeding unless the adju-'dication of the claim-(1). resulted in a decision that was contrary to, or involved an uureasonable application of, clearly established Fed-?
eral law, as determinted by the Supreme Court of the United
States; or
(2). resulted in a decision that was based on an unrea­
sonable determination of the facts in light of the evidence
presented in th State court proceeding.
(e)(1) In a proceeding instituted by an application for a writ
of habeas corpus by a person in the custody pursuuant to the ~
judgment of a State dourt, a determination of a factual issue
1
made by a State court shall be presumed to be correct. The app-i ’
licant shall have the burden of rebutting the presumption of
correctioness by clear and convincing evidence. 28 U.S.C. 2254(d)
& (e) (2010).

(3).

No.
IN THE SUPREME COURT OF THE UNITED STATE
LAWRENCE JAMES NAPPER
PETITIONER
-vLAWRENCE J. NPPER
TDCJ No.1080356

CIVIL ACTION No. H-20-261
November 8, 2020

VS.
BOBBY LUMPKINS;DIRECTOR,
RESPONDENT-APPELLEE
TEXAS DEPARTMENT OF CRIMINAL JUSTICE
CORRECTIONAL INSTITUTIONS DIVISION,
On petition for writ of certiorai of the UnitedStates
Court of Appeal for the Fifth Circuit
PETITION FOR A WRIT OF CERTIOARI
" APPELLANT’S MOTION REQUESTING PERMISSION TO FILE
TOGATHER WITH HIS CERTIFICATE OF APPEALABITY.
TO THE HONORABLE SUPREME COURT OF APPEALS JUSTICE
I.
F FACT OF THE CASE:
The instant appellant's in this case resulted from the
dissmissal (WITHOUT PREDJUDUCE), enter against this appelant-Petitioner, by a United Stat-District Judge (ANDREW
S. HANEN) And the UnitedState Court of Appeals Fifth Cir­
cuit court Judge before HigginBothan, Smith, and Enggelhardt,
Circuit Judges.for a lack of jurisdiction becasue te petition­
er in this case had suppose to file in his asking for that
court to review the SOUTHERN DISTRICT COURT JUDGES RULING
OF AN SUCESSIVE MOTION CONCERNING THIS PETITIONERS I^ffcECEfVED
£ndrActual Innocenct claim that was never filed by the

NOV 2 0 2020
SUPREME1COURT-m^

(!•).

Court of Criminal appeals, nor publicly ruled onin his prior
Writ Of Habeas Corpus back in Exparter Napper vs Rick Thaler,
Napper vs State, Nos. 11-02-00017-CR 11-02-00018-CR, 2003 WL 231A
63045.
This petitoner did file on time hismsstion for the court of .1 O,)**
Appeals. TherCCourt of Appeals has not properly rule on this
issue. Mr. Napper totally show from the record of the Southern
District Court DC CM/ECT LIVE- US District Court-Texas Southern,
that after the objection was ruled on in 2-27-2020, Mr. Napper
sure did file another Final Objection to the first one, and
was enter on the record , but that court had not given an
answer, so than Mr. Napper wrote a letter concerning the
answer and respond on 5-7-2020, and still no answer from that
letter, so he wrote another letter on 6-15-2020, and still no
answer or respond from that court. Even so during the filing of
the rndtion on 2-20-2020, the motion was also file togather to
the Court Of Appeal by Mr. Napper appealing his case. A Copy
of this motion will be attach to this motion, and even if the
Court Of Appeal had over looked this fact, it still had juris­
diction to rule on Mr. Napper Motion,
There has not been a day that any excuse been made to drop
or dismiss a case that has been inviotion of the United State Contitution.. This is not the end of justice, and it would be a
Fundamentl^Misc&ssi'aged jasitieh of any court including this one to not review this petitioners motifinfor a Brady And Actual
Innocence violation that has be clearly showed by this petitioner
in this case.
II.
ARGUMENTS IN SUPPORT FOR THE DISMISSAL OF
THIS PETITIONERS APPEALS BY THE COURT OF CRIMINAL APPEAL, A ■
SOUTHERN DISTRICT COURT, AND THE COURT OF APPEALS. This Pro-Se litigant (NO EXCUSE), proceeding without the
assistance of counsel, had tried with all his might (ATTEMPTED),
without the sucess in conesing CERTIFICATE of Appealability and
appealability and under the same appelate brief, and all with
in the Fifth Circuit Court of Appeals requirement.
The petitioern in this case filing Pro Se Motion .for Recon­
sideration of this case to have both been rule on but not yet
considered to even review his motion for his Brady V. Maryland
and Actual Innocence clian to its merit. This petitoner again
back on a MOTION FOR RECONSIDERATION , deserve by law to be re­
view for its constituional violation that have never been re­
viewed. Out of the (5)-FIVE GROUNDS that was filed by Mr. Napper
none of the present court with in their Jurisdiction has review
all of his grounds of error in his prior writ of habeas Corpus
in-his; .old writ of habeas corpus or in his motion now to re(5).

consideration that desire its review in his Aggravated Kid­
napping and Sexual assault of a Child. This petitioner will
also show this court as he has in the other courts, that it would
be in the interested in this court and a miscarriage of juctice
of his appeal not to review his constitutional violation in his
motion not review in his first Habeas Corpus . [EXPARTE NAPPER
V. THALER, H-10-3550 and H-10-3551 S.D TEX. May 31, 2012,- and
the dismissing of Mr. Napper Habeas Claim of the merit with
prejudice instead of (ON the merit of the case).
This is concerning at his trial in Harris County Cause No. 886
45-88645, when there prosecutor destroyed by thier agency of the
Houston Police Department Dna Crime , use testimony of Dna
sperm used to connect Mr. Napper to this crime, without his de­
fense team , and anybody else havein the legal fair opportunity
tosee if in fact if there ever was any dna sample swab for him
or them to test. The petitoner was not identified by the victim
at his trial in the jury present, and testified that the dna
was not his dna. Not to mention 9-Years later, the trial judge
bench warrant Mr. Napper back to court and recommented him a
new trial becasue the state destroyed all the dna not allowing
him the opportunity to have test the'dna or anybody else to test
it.
i .
The court of the southern district has also in this petitioner
motion misunderstand that it was thier own faultwhen in his
original petition for a writ of habeas corpus when it denied him
his certificate of appeaplability in tfetsfinal judgment, and terminated his public defender for federal counsel SS DOC.(#36).
without allowing defense counsel t further proceed to finish
arguing in a (14) Day objection after his judgment to the Brady
and Actual innocence claim in that court at that time and now "i.
want to call it a successive writ on ‘Mr. iNapper behalf. ~
Becuase of this error of the Southern District back on that day
at that time it was under that status an interference of that
court in that process of his constutional right to give him or
allow him to proceed to all further proceeding thereafter its
final judgements.

(6) .

Note here [PURSUANT TO 18 U.S.C. 3006A(c). A PERSON TO WHO
COUNSEL IS APPOINTED SHALL BE REPRESENTED AT EVERY STAGE OF THE
PROCEEDING FROM HIS INITIAL APPEARANCE BEFORE THE UNITED STATE
MAGISTRATE JUDGE OR THROUGHT APPEAL, INCLUDING ANCILLARY MATHERS
APPROPRIATE TO THE PROCEEDINGS. SEE also 18 U.S.C 3599 (e)
(VUNLESS REPLACE BY SIMILARY QUALIFIED COUNSEL UPON THE ATTORNEY
SHALL REPRESENT THE DEFENDANT THROUGHT OUT ... ALL AVAIABLE POST
CONVICTION PROCEEDING, TOGATHER WITH APPLICATION FOR STAY OF EXSECUTION AND OTHER APPROPRIATE MOTIONS AND PROCEDURES, AND SHALL
ALSO REPRESENT THE DEFENDANT IN SUCH COMPETECY PROCEEDING AND
PROCEEDING AND PROCEEDING FOR EXECUTIVE OR OTHER CLEMENCY AS MAY
BE AVAILABLE TO THE DEFENDANT). AND RULE 8 (c) OF THE RULES
GOVERNING SECTION 2254 CASES IN THE UNITED STATES DISTRICT COURT
(2010). THESE RULES DONOT LIMIT THE APPOINTMENT OF COUNSEL UNDER
18 U.S.C. 3006A IN ANY STAGE OF THE PROCEEDINGS, FURTHERMORE, IN
HABEAS CORPUS PROCEEDING THE ORDER SHALL BE (SUBJECT TO REVIEW
ON APPEAL). See U.S.C. 2253.
Mr. Napper did not get this opportunity or Attorney to
object to the final judgment concerning anyrissue after'the
final judgment, which interfer with this violation from the
Court of criminal/appeals court.
This petitioner further understand that at this process of
the proceeding in federal court he donot have a right to have
counsel appointed to him, but in according to this status to
18 U.S.C 18 U.S.C. 3006A(c) QQnce the judge rule and appointed ^
him a counsel for this process, the judge would be inviolation
of interfering into the appeals process of effective assistance
of counsel to this petitioner if and when his counsel was
interminated for these two grounds that was not allowed to be
filed and ruie on to its merit by Mr. Napper.
Ruie 11 of the govering section 2254 on the issue of Certicate Of Appealability cases, required district court to issue
or deny a certificate of appealability when entering order that
is adverse to the petitioner. See 28 U.S.C. 2253
A certificate of appealability issues unless the petitoiner
makes ^a substanial showing of a denial of a constitutiona right.
Schlup v. Delo, and 28 U.S.C 2253 (c). (2), which requires a
petitioner to demonstrate that reasonable jurists would find the

m.

district court's assessment of the constitutional cliam debale or wrong. See Also Tennard, 542 U.S at 282, quating —
slack v Mcdanil 529 U.S. 473, 484 (200).
Under the controlling standard, this require a petitioner
to show that reasonable jurist could debate whether or for
that matter a88r'es that the petition should have
resolved in a
different manner or that the issue presented were adequte to de­
serve encouragement to proceed further. Miller-El v.
Cockrell
U.S. 322, 336 (2003).
A trial court destruction of material and excuplatory value
of the unverified dna sample unseen independantly and testified
to by the states two dna expert connecting Mr. Napper to this
crimt denyed him this same acess to that evidence
to he will »prove in his motion he was entitled too, which the court of crim
nal appeal s denied him to have and
present in his own defense
not to have been his dna sperm. Brady v Maryland, would have re­
present by not allowing him to recieve the said sample or to even
test them for his self, was as his Trial Judge in Harris Court
a duecprocess violation for destroying that evidence at any cost.
This certificate of appealability should be reviewed and
granted. It is Mr. Napper constitutional right that the prosecutor duty to preserve evidence contrubuting to this defendant's
guilty or innocnce, where the trial use that evidence to
support
there conviction, it was justas important for the accuse to show
or at least verify the dna was not his or that experts was not be
ingtrueful when he testified the dna belong only to Mr. Napper ?
appart from anybody else in the ,€ftole wide world if there ever —
was any sample in the first place. Mr. Napper took the stand at
his trial in risk of his prior conviction and testified to the
jury that it was not his dna recovered the state and that it
was false Mr. Chu claim he had tested. If the evidence has been
destroyed than there is no prove could be made , if it donot exisit
ainymore. THe court did nothing to correct this
the state could —
have (INDEPENDANTLY) at least check thier experts data to his re­
sult , it would have found it did not infact match this petitoner
or not. Becasue there has never oeen a dna hearing in this
case,
z. hearinS would have shown the jury the dna dna infact by the

(8).

really not made no match to this petition at all. See Pena
v. State, 285 SW3d 2009, The state was reqired to preserve rthose sample, and give the defense the sample as well. See
(TEX. HEALTH AND SAFTY CODE 481.160). He was entitle to used
the same dna sample tested as the state claim they had used
and ffound the exculpatory value of them before they was destroy*,
ed-which found the attacker or this defender victim.
See Jean V. Collins, 221 F.-5^3%$^ ,When a procedural safe guards
that comprises on element of a fair trial, such as the right to
exculpatory evdience, the concurrence thanks the remdy is a new
trial because of the constitutional injury can deprivation of liberty without due process of law. Jean further also state;®
(THE RIGHT TO EXCULPATORY EVIDENCE IS ALREADY PROTECTED UNDER
PROCEDURAL COMPONET OF THE DUE PROCESS CLAUSE. Also See State
v. Vasquez, 230 SW3d 744, TEX.APP. 20070, And Garil V. Vasquez,
900 SW.2d 721 (TEX. APP. 1995), A defendant therefore has a
legitiate interest in conducting his own test on any sample the
State may use to gain a conviction, He also has a statuory r.j v
authorization . See Yarris v. county of Delaware,, 465 F.3d 129,
3rd cir. 2006), Which is the guide by Youngblood and Fisher v.
illoniss, Yarris COUNTY LAW ENFORCEMENT OFFICERS ALLEGED CONDUCT
IN MISHANDING AND DESTROYING THE DN'A SAMPLE THAT COULD HAVE BEEN ~
USE FOR THE DNA TESTIG BY A CITIZEN.
YARRIS CONTINUE TO STATE, (WELL ESTABLISH DUE PROCES OFFICERS
FAIL TO PRESERVE POTENTIALY USEFUL EVIDENCE IN BADFAITH AND
CITIZEN ALLEGED THAT THE OFFICER KNEW OF THE EXCULPASTORY VALUE
OF THt EVIDENCE AT THE TIME IT WAS DESTROYED. Also note here that
Youngblood establish the standard in Yarris.
See HILLARD v. SPALDING 719 F.2d 1643 (1983), IF THE SAMPLE '
CAME INTO THE GOVERNMENT HANDS PRIOR TO THE TRILA, AND SUBSQUESTL ~
BEEN!DESTROYED HOWEVER THE GOVERNMET MAY NOT INFERFER WITH THE
ACCUSES ABILITY TO PRESENT A DEFENSE BY IMPOSING ON HIM A RE­
QUIREMENT WHICH THE GOVERNMENT OWN ACTION HAS RENDER IMPOSSIBLE
TO FULFULL.,, Also, WHERE THE DEFENDANT HAVE NOT BEEN PERMITTED TO
TEST A SPPERM SAMPLE, IT IS IMPOSSIBLE FOR HIM TO PROVE HE WAS
ACTUALLY PREJUDICE, WE ASUM HE WAS. Also, THE GOVENMENT SUPPRSSION OF THIS TYPE OF EVIDENCE WHICH DEPRIVED THE DEFENDANT OF

(9) .

VIOLATIONS FROM THE OUT SET. AND FROM THIS TEETH PRINT
THAT
WHEN A JUDGE IS IN.GRAVE DOUBT, THE DEFENDANT MUCH WIN WHEN
SUPPORTED BY THE RECORD. The prosecutor used false evidence
agains Mr. Napper concerning the dna sperm, which was never
give to him to test and show that the dna was not his dna or
to even show more proof that no such dna ever exist from the
start. This will be abuse of discretion and a total disregard
of (FUNDAMENTAL OF A MISCARRIAGE OF JUSTICE) to review his
claim or to deny Mr. Napper nis entitlement of his Right to a
fair trial from this trial court (PROCEDURAL DUE PROCESS RIGHT).
And if both the court of the district court and the court of
appeal would take an extra look.into the exceptions to
procedural dsf‘£iltv.laws:.ahd rules and Motion Provision , than ^
just as oppose to just the general rules. None of these court
has even first bother to show or explain that Mr. tapper at —
this ppoint of his final judgment or objection denied has
shown he is forcing new grounds of errors, nor determind by any **
review from Mr. Napper's motion that he was not entle to the
destruction of the seman sample evidence used to convict him bythe prosecutor.
? >■

ISSUE NO. (1)
WHETHER ALL THREE‘COURT JUDGES ABUSED ITS DISCRITION TO TAKE
JURISDICTION AND REVERSSBLY ERROR WHEN IN PETITINIONER's ORI­
GINAL AND TIMELY FILED FEDERAL HABEAS PETITION DUE TO HIS ACTUAL
INNOCENCE CLAIM DISMISS AS BEING SUCCESSIVE IN HIS REQUEST UPON
THAT COURT TO FILE ITS OWN MOTION FOR RECONSIDERATION WAS NOT

SUCCESSIVE.........
STANARD OF REVIEW
Precedural duq process directs that when a district court
henies rule 60(b) Motion, is required to obtain a COA to appealthe denial of his rule 60(b) Motion. CANALES V. QUARTERMAN, 507
F•3d 884, 887, (5th Cir. 2010); Gonzalez V. Crosby, 545 U.S tobe
treated as second or Successive petition. Phelps v. Alameida.—
569 F.3d 1120 9th (Cir. 2009).

(10).

WHAT COULD BE HIS ONLY OPPORTUNITY TO CONCLUSIVELY PROVE HIS IN­
NOCENCE CANNOT WITHSTAND CONSTITUTIONAL SCRUTINY. Even.to asura
a procedural violation or a failure to file a aped! to the
Court of Appeal, can never be an excuse to review a violation
of the constituion of the united state of any kind. Keep in mindalso, the trial court did not contest the eye witness testimony
when the victim fail to independently identify Mr. Napper, nor
did the alate'trial prosecutor give any legal reasonable ex­
planation when MR. NAPPER question them when he testified, why
did the state not save the dna so that he could prove it was
not Iris and that t’nier dna expert had testifed falsely. [THE
TRIAL COURT NEVER DID OR COULD GIVE A ANSWER TO THAT IN THE
PRESENT OF THE JURY OR ANY WHERE ELSE IN THE APPEAL PROCEEDINGS.
CONCLUSION
The district court further state that is is required to dis- —
miss this petition without prejudice becasue there is no in­
dication that Napper has sought or recieved authorization from the Fifth Circuit Court to proceed with a successive petition
in that court. Although this court maybe somewhat in the right
as a general rule and also may include 60(b) Motiom, AEDPA's,
but that court didnot consider and alright ignored's any and
all (EXCEPTIONS) to further support determination of the
general rules that this court jurisdiction was still within rul1 ’
ing or reviewing without the permission from the fifth cir.
court of appeal court.
This court further content that Mr. Napper only get one
bit of:L:the apple, this court because it has not had a proper
review of the his motion that supports the record or his
constitutional claim in Mr.Napper to claim for these court
to determine first from his motion as require by law. More­
over these courts are all failing to understand clearly here
because these court has not offorded Mr. Napper a Hearing
(De Novo) and reconized that it wasthe Stae Trial Court who
first reconize the apple and took the first'bit when it (RE§F,">'A WELL UNDERSTOOD BRADY DUE

THE-LAW
Federal Rules of Civil Procedure, Rule 60(b) motion for
relief from judgment or orders allows party to seek relief
from a final judgnment or order by requesting reopening of
thier habeas under a limited sect of circumstance including
Fraud, Mistake and newly discovered evidnece. Liljeberg v.
Health Service Acquistion Corp, 108 Set. 2194, (1988), Garia v.
Thaler, 793 F. SUPP. 894 (W.D TEX. 2011):
ACTUAL-INNOCENCE-CLAIM
See Exparte Brooks, 2000 WL 1759289, C.C.P (2007). The Court
Of Criminal Appeal held that subsequent application for writ
of Habeas Corpus asserting a contitional violation, must be
accompanied with prima facie claim of actual innocence, in
order to satisfy requirement in code of criminal procedure that
a subsequent application application for writ of habeas corpus "
must contain sufficient specify fact's establishing by a prepondence of the evidence that, but for a constitutional vio­
lation, no rational juror would have found applicant guilty
beyond a reasonable doubt-, Vernons Ann. Texas C.C.P, Art. 11.07
4(4)(2), 11.071 5 (A) l2), which was enacted in response to
Schlup v. Delo, 115 S.ct 851.
IN Schlup the UnitedSt&te's Supreme Court ruled that the
Federal State Supreme Court rule that the Federal Habeas Cor
Corpus petition must show that a constitutional violation more
likely than not resulted in the conviction of an innocence
prisoner. ID. AT 327, 115 S.CT 851.
The purpose of the subsequent writ provision is
proven review in only those cases where the legal basis for the claim was
previously unavaiable, or to REMEDY A MISCARRIAGE OF JUSTICE, as
was tired to (SCHLUP).
Napper contends as attacking the Southern District order in
the denial of his motion as being successive under the stan­
dards in McClesty v. ZANT, 111 S.ct 1454 (1991), that if the

6lh!lrp?Ihi§SeEml?n{l^e?teW!r?4 I^iJSed f?
(12) .

"

Also Brady violation occurs when the prosection fail
close evidence that may impeach the credibility of a
witnesss when the witness credibility is material to
of the accusers guilt. Little v. State, 971 SW2d 729
APP 1998).

to dis­
State's
postion
(TEX.

Also See Exparte Richardson, 70 SW.3d 865, Tex Crim. App.
2002. The materiality element of the rbady due process vio­
lation, tne question is not whether the defendant would more '.h•=
likely than not have recieved a different verdict the trial
evidence but whether in it's absence he recievd a fair trial
resulting in a verdict worthy of confidence, in other words
mady ensures that the defenant will obtaini relief from a conviction [TAINTED] by the state's [NONE DISCLOSURE OF MAT? ;:
ER1ALLY FAVORABLE, REGARDLESS OF FAITH.
—
Also see Fero 39 F.3d 1472, Mr. Napper contends here also
like in Fero, even thought there is not evidence to suggest t ■ V
the the state's with holding of the evidence was either caiulated or Maicious. This court has previosly held that (NEGLIF!'.1 >
GENT OR INAVERTET) SUPPRESSION OF THE EVIDENCE IS NEVERTHELESS
FOR THE BRADY PURPOSES. //it,t /// - . L
Also see Detmering v. State, SW.2d 863, (1972 Crim. App.),
THIs ocurt on Art. 36.14 V.A, C.CP, our present judge said
that if there is known that the state is planning to base it's
case on a finger print, bullet, pistor or rifle, book or re­
cord, the defendant can have his own expert exaime the same
under the (SAFE GUARDS PROVIDED). Mr. Napper contends the state
ourt violated a guarranteed constitutional right.
THe petitoner Napper condends like in Osbore v. dist. attorneyoffice, 521 F.3d H18, (9th Cir 2008), Brady ensure a fair trial
a defendant right to pre-trial disclosure under brady is (NOT)
conditioned on his ability to demonstrate that he would or even
proablely would preval at trial if the evidence were disclosed.
Again this beg the question here concerning the Southern Dis­
trict requiring it self to impose with respect ton.tne parties
not arguring from the state Court about Mr. Napper or thetcourt
of drimnal appeal, (NEVER COMPLAIN THAT Mr. NAPPER MTION WAS A
ISSUE AS BEING TIME BAR, SUBUENT, NOR SUCCESSIVE).
So this the-'court of criminal appeal and the Southern Dis­
trict and Court of appeals is out of is own jurisdiction to
argue hnd hold Mr. Napper by suprise to defend the successive
writ provision as being in violation, becasue if the state c
court of criminal appeals court did not argue or deny petition­
er's Mr. Napper motion on a procedural default subsuent writ or
successive writ, A DISTRICT COURT OF SOUTHERN DIVISION IS NOT
RE0U1RED TO RAISE THE ISSUE. See Trest v. CAIN, 118tS.cts4/8,
(1997) .

(13).

Nor is a court of appeal is not require to raise the issue of
procedural default's. In the habeas context, procedural de­
fault is normally a defense that the state is obligated to
raise andperserve -lideitnhas not lose the right to obsetibnthe
defense. Also again, Mr. Napper the petitioner here is also
q
questioning both the District Court as well as the Court of f'appeal (5th Cir);is not require to force such a suprise and
hardship upon him to address issue that niether he Court Of
Criminal Appeal or parties by law have already waived, once it
had thier oppornunity to exhaust.
Even thought these issue was supported by the trial court
records, or even asuming both of these court would be right
at any issue they complain of to Mr. Napper process right co be
appealing his two issues tht was never consider in his first
writ of habeas corpus, these court is not the end of justice
here and cannot continue to deny

Mr. Napper that would sub­
jected him an Absolute right. See Keeter v.State, 105 SW.3d
(TEX. APP. 2003)), Keeter Makes it clear to any court of appeals
(A DEFENDANT MAY COMPLAIN ABOUT THE VIOLATION OF AN ABSOLUTE
RIGHT OR PROHIBITION ON APPEAL WITHOUT HAVING RASIED THE WUESTION
IN THE TRIAL COURT BRADY CLAIM. Mr. Napper contends here, Such
absolute rights, those pertaining tosysemice requirement of juaie.
cal proceeding cannot be waived or forfeited even with the con^Mi
sent: IMPLEMENTATION OF SUCH RIGHT,’s IS NOT OPTIONAL AND CANNOT
BE WAIVED OR FORFEITED.
Also see Mr. Napper contends that in U.S. V. Lioyd 71 F. 3d
408, D.C Cir, 1995, New trial motion based on evidenece withheld
in violation of brady cannot be denied on the basis that new
trial would not have produce different out come, such violation
NOT subject to HARMLESS ERROR ANYLSIS, is all the more reason
why this court shuld consider reviewing and set aside any su­
ccessive motion or writ error of this safe guarded due process
vilation concerning a brady violation.
SEE THE FOLLOWING CASES IN A NUTSHALL WHY THIS BRADY
CLAIM IS CONSIDERED REVIEW OF THIS COURT WITHOUT GOING
IN TO THE ACTUAL FACTUAL ISSUE, BUT THE DUE PROCESS VIOLATION
WHICH SHOULD LEAD THIS COURT TO RECONSIDER ITS DISMISSAL OF THE n
DISTRICT COURT FINAL ARGUEMENT AND OBJECTIONS AS A SUCCESSIVE
WRIT OK MOTION AND GRANT HIS RELIEF IN THE COURT OF APPEALS
AND THE UNITED STATE SUPREME COURS.

(14).

(5). See ARIZONA v. YOUNGBLOOD, 109 S.ct 333
(a). IN A CASE WHERE IS NO DOUBT THAT THE SEMEN CAME FROM
THE ASSAILANT, THE PREUMPTION MUCH BE THAT IT BE PRE­
SERVED. THIS IS AN EXCEPTION TO THE SUCCESSIVE WRIT
RULE PROVISION.
(6). See McBRIDE V. STATE, 838 SW.2d 246, (TEX. CRIM. APP.)
(a). CONSEQUENTLY, THE REVIEWING CURT MUCH FOCUS UPON THE
PROCESS AND NOT THE RESULT. IF THERE ERROR OF A MAG­
NITUDE THAT IT DISRUPTED THE JUROR'S PROPERLY EVALUA­
TION OF THE EVIDENCE NO MATTER HOW OVERWHELMING IT
MIGHT HAVE BEEN THAN THE CONVICTION IS TAINTED.
THIS IS AN EXCEPTION TO THE RULE OF PROCEDURAL DEFAULT
PROVISION OR ANY OTHER RULES.
(7). See MURRY V. CARRIER, 106 S.ct 2635 (1986).
(a). THIS,'COURT FOR AUGUEMENT SAKE HELD IN EXTRAORDINARY
CASE WHERE THE CONSTITUTIONAL VIOLATION HAS BEEN PROABLELY RESULTED IN CONVICTION OF ONE WHO IS ACTUALLY
INNOCENCE OF A BRADY VIOLATION, FEDERAL COURT MAY GRANT
WRIT EVEN IN THE ABSENCE OF A SHOWING A CAUSE FOR PRO­
CEDURAL DEFAULT.
(£}; Also held, WE REMAIN CONFIDENCE THAT FOR THE MOST PART
VICTIM FUNDAMENTAL MISCARRIAGE OF JUCTICE WILL MEET THE;
CAUSE AND PREDUJUICE STANDARD, AND FEDRAL HABEAS COURT :
MAY GRANT THE WRIT EVEN IN THE ABSENCE OF A SHOWING OF
CAUSE FOR THE PROCEDURAL DEFAULT.
THIS IS AN EXCEPTION TO THE EXCESSIVE WRIT RULE PROVISION
(8).See ADAMS V. STATE, 768 SW.2d 281 (CRIM. APP. 1989)
(a). WHERE THE RULE::OF THE TRIAL JUDGE UPON iTHE EXISTENCE OF !'•
NON EXISTING OF CERTIAN FACTS AND TESTIMONY PRO AND CON
IS INTRODUCED THIER ON AND EVIDNECE IS CONFLICTING IT’
BECOMES THE DUTY OF THE JUDGE TO DETERMINE THE ISSUE AND
UNLESS IT APPEARS T TO -THE COURT THAT THIS FINDING WAS
WITHOUT SUPPORT IN THE EVIDENCE AND THAT HE HAD COMMITTED
AN ERROR IN HIS JUDGEMENT THEREON, WE WILL NOT INTERFER
WITH HIS FINDING THEREOF.
THIS IA AN EXCEPTION TO THE SUCCESSIVE WRIT RULE PROVISIO
(9). See SOFFAR V. DRERKE 368 F. 3d 441 (2004).
(a). TIME AND TIME AGAIN, THE SUPREME COURT HAS INSTRUCTED
THAT (AEDPA) BY SETTING FORTH NECCESSARY PRECATES BEFORE
STATE COURT JUDGEMENT'S MAY BE SET ASIDE, ERECTS A FOREDABLE BARRIER TO FEDERAL HABEAS'S RELIEF FOR PRISONERS
WHOSE CLAIMS HAVE ADJUICATED IN THE STATE COURT, WhITE V
WHEELER, U.S. 136 S.c 456 (2015). THIS IS ALSO COVERED BY
THE EXCEPTIONS TO THE SUCCESSIVE RULE INVIOLATION OF ALL
CONSTITUTION ERROR.
(10(b) 5 ’’-IN ALVARE, AEDAPA REVIEW EXIST ONLY TO GUARD AGAINST
EXTREME MALFUNTIONS IN THE CRIMINAL JUSTICE SYSTEM, WOODS
V. DONALD U.S. 135 S.ct 1372.

(15).

See MUNCHINSKI V. SOLOMOM, 258 F. SUfil? .3d 2017.
Mr. Napper conteds like in solomom if the lower courts
as well as this court would take its jurisdistion, this
court’: v •
(a). WILL ANALZYE THE EVIDENCE AT ISUUE TO DETERMINE IF THE
WITHOLDING OF THE EVIDENCE AT ISSUE DETERMINE IF THE
WITH HOLDING OF THE EVIDENCE CONSTITUED A BRADY VIOLATION.
(b). IMPEACHMENT EVIDENCE AS WELL AS EXCULPATORY EVIDENCE
NEED NOT BE FAVORABLE, AND THUS DISCOVERELE UNDER BRADY.
$22). See STATE V. RUDD, 871 SW.2d 530 (1194)
(a). RUDD CLEARLY EXPLIAN FOR THERE TO BE DUE PROCESS VIOLATION WHEN THE STATE FAIL TO PRESERVE POTENTIALY USEFUL
EVDIENCE, (EXCULPATORY VALUE OF THE EVIDENCE MUCH BE
OBVIOUS BEFORE THE STATE DESTROYED THE EVIDENCE AND THE
EIVDENCE MUCH BE THAT THE DEFENDANT WOULD BE UNABLE TO
FIND COMPARABLE EVIDNCE BY OTHER AVAILABLE MEANS. U.S.
C.A. CONST. AMENT 14.
(23). See STATE V, VASQUEZ 230 SW.3d 744, TEX. APP. 2007),
GABRIL V. STATE, 900 SW.2d 721, (TEX. CRIM. APP. 1995)
(a). A DEFENDANT THEREFORE HAS A LEGITIATE INTEREST IN CON­
DUCTING HIS OWN TEST ON ANY SAMPLE THE STATE MAY USE TO
GAIN A CONVICTION, HE ALSO HIS A STATUTORY AUTHORIZATION.
THIS IS AN EXCEPTION TO THE SUCCESSIVE WRIT RULE PROVI­
SION.
This petitoner also adds here the SOURTHERN District Court as
well as any other court, donot have this authorite to reward "
a procedurl default sua sponde in if he has already in this
motion given the court of criminal it opportunity to object to
it which they didnot in this present motion. It just denied the
motion and no rehearing.
(24). See TREST V. CAIN 118 S.ct. ct 478 (1979)
(a). WHEN REVIEWING DISTRICT COURT'S HABEAS DECISION, COURT OF
APPEALS IS NOT REQUIRE TO RAISE ISSUE OF PROCEDURAL r*
DEAULT SUA SPONTE 28 U.S.C.S. 2254.
(b). IN HABEAS CONTEXT, A PROCEDURE DEFAULT THAT IS A CRITICAL
FAILURE TO COMPLY WITH PROCEDURAL LAW, IS NOT A JURISDisTIONAL MATTER. 28, 28 U.S.C.A
(c). IN HABEAS CONTEXT, PROCEDURAL DEFAULT IS NORMALLY A DE­
FENSE THAT THE STATE IS OBLIGATED TO RAISE AND PRESERVE
IF IT ISSNOT TO LOSE THE RIGHT TO ASSERT DEFENSE THERE
AFTER. 28 U.S.C.A., GRAY V. NETHERLAND, 116 S.CT 2074 AND
JENKINS V. ANDERSON, 100 S.TH 2124, 2127. (1980).
(d). THIS COURT IS UNAWARE OF ANY PRECEDENT STATING THAT A
HABEAS COURT MUCH RAISE A MATTER WHERE THE STATE ITSELF
DOES NOT DO SO. P. 480.
(e). THE DISTRICT COURT REFUSED TO ISSUE THE WRIT. TREST
APPEAL TO THE COURT OF APPEALS FOR THE FIFTH CIRCUIT
WHICH RULED AGAINST HIM ON THE GROUND OF PROCEDURAL DE“ - - ■
Fault.. THE PARTIES - THEMSELF HAD NIETHER RAISED NOR
ARGUE THE MATTER
(16).

show the fundamental miscarriage of .Justice would result
from the failure to entertain claim. Mr. Napper believe his case
raises the type of standard of fundamentalness of his mis­
carriage of justice that excuse successive writ to his actual
innocnce claim. INNOCENCE CLAIM. Also, in Murray v. Murray,
Mr. Napper contends like in Muray that when the constitution
violation has proably resulted in the conviction one who is
actually innocence, (A FEDERAL HABEAS COURT MAY GRANT THE WRIT
EVEN IN THE ABSENCE OF A SHOWING OF GfiUSEZFOR THE PROCEDURAL
DEFAULT.
In also the present isue the Southern District court has
choose on its own to urged here a successive writ that niether
the COURT OF CRIMINAL APPEAL NOR STATE TRIAL COURT OR THE DE
FENDANT HAS NEVER RAISE THAT ISSUE. Mr.napper beg the question
here as to why or how asking the COUrt of Criminal appeals
court to make a ruling one one that had never been rule on in
his last writ of habeas corpus, and they did, but never conplain of a successive writ, but now at this point would be
considered wavied on their behalf, they had one bit at that
apple here. Why do Mr.napper even have to address ths issue.
In Mr. Napper motion here for reconsideration, he consistent
ly recited facts allegation fhatagivetrise to the constitutional
claim undr brady and actual innocence claim. See Quinn 337 F.
Supp 2d. 99 (2008), under Fed. R. Crim. P. 33 (A), A court may!
vacate any judgment and grant a new trial if the interest of the justice so requires. And rulfe 33 Motion requires a close
analysis of the government is discision-making at various times.
Also, Again see U.S v. Quinn, 537 F. SUpp.2d 99 (2008). Mr.
Napper contends like in Qinn pending motion before he court for
a new trial file pursant to federal rule of criminal procedures
33. and 33(A) (1). That the government suppressed material evi­
dence in violation of a Brady V. Maryland, 373 U.S. 83, 83 S.ct
119$, (1963) THAT GOVERNMENT ALLOWED FALSE TESTIMONY OF A WITNESS
TO GO UNCORRECT IN VIOLATION OF NAPUE V. ILLNOIS, S.CT. 1173,
(1959), AND MR. NAPPER CONTENDS THAT THE SAME PROSECfTOR CON- VICTED HIM ON DESTROED EVIDENCE, THAT HE WAS NOT GIVEN THE OPPOR­
TUNITY TO DO A INDEPENDENT TEST ON, BECASUE THE EVIDENCE WAS
DESTROYED AT A TIME THAT THE STATE KNEW THE EXCULPATORY VALUE

(17).

OF THE EVIDENCE AND HE COULD NOT POINT OUT
WHO COULD HAVE COMITED THIS CRIME.

ACTUAL PERSON

Again, Napper like in Mccleskey V. Zant, 11.ct 14547'(1991), in
the district court was wrong for dismissing his petition without
hearing on the sole ground that the claim was not raised in one
of his habeas action. This court reversed and remind, [REASON
THAT THE DISMISSAL PRECLUDES A PROPER DEVELOPEMENT OF THE
ALEGEDLY ABUSE USE OF THE HABEAS CORPUS WRIT AND NOW HIS MOTION
ASKING PERMISSION TO REVIEW HIS MOTION.NOW FOR THERE LACK OF
JURISDICTION OF HIM NOT FILING THE TSSUE^FROM THE ’SOUTHERN n;t TIM
DISTRICT ON TIME},Asuming even if it was true or not, WITHOUT
A PROPER REVIEW OF Mr. Napper MOTION FIRST TO SEE IF IN FACT
THERE AS BEEN SUCH A VIOLATION, THERE CAN BE NO OTHER EXCUSE
TO DENIED HIS MOTION FIRST. If in fact this court as well as
the Southern District Court would have did this, than it
could have gotten by with the required answering Mr. Naper
Brady v. Marying and Actual innocence complain to move on to
the nexts court, but niether court has done so.
See McKleskey, Mr. Napper condends without considering
whether the petitioner had abused the writ, we remand the case.
In Mccleaskey, emphasis Added, for cause to ecisit, the ext email iked iment, whether it be gobernment (INTERFERNCE) or
the reasoning unavialability of the factual basis for the
claim must have prevented petitioner from raising the claim.
See ID. AT 488 106 S.ct at 2645 [CAUSE IF THE INTERFERENCE BY
OFFCIALS MADED INPRACTICABLE: Armde V. Zant, 108 S.ct 1771,
1776, (1988).
ISSUE NO. (2)
WHETHER THE UNITED STATE DISTRICT COURT JUDGE AND
COURT OF APPEAL ABUSED ITS DISCRETION AND REVER
SIBALE ERROR WHEN IN PETITI0R"S ORIGINAL AND TIMELY
FILED FEDERAL HABEAS PETITION DUE TO HIS BRADY V. MARY­
LAND CLAIM DISMISS AS BEING SUCCESSIVE IN HIS REQUEST UP

QH_THAT_CQURT_TQ_EiLE_ITS_QWN_MQTXQN_WAS_N0T_SUCCEi3IVEx_____
Petitioner in his (is'sueMNo. 2K/qlaim and argue that O.S.
District Court Judge Hon. Andrew S. HANEN, abused the court
discrection, when it denied him Motion as being Successive by
ffigPRIVING HIM OF EQUAL PROTECTION UNDER THE LAW SUSPENSION OF

(18).

THE WRIT OF HABEAS CORPUS). When the Court Of CRIMINAL Appeal,
Southern District, and Cort of Appeal dismissed and close out
Mr. Napper Brady v. Maryland claim in regard to a (PROCEDURAL
DUE PROCESS VIOLATION), Therefore, (INTERFERING) and (BLOCK_
ING) HIS RIGHT IN HIS PROIR ORIGINAL WRIT OF HABEAS Corpus
by (TERINATION)OF HIS APPEAL ATTORNEY BY THE SOU^ •v
THERN DISTICT cAhs:iWg TfLiriTtind.'e'ffh^ti'vh' assistance of counsel
that that court had appointed him from a Federal Publice OFFEND­
ER OFFICE, and causing Mf-r. Napper not to complete further jbe'lf
over proceding of this present proceeding in two grounds of
arror that was filed in the state district trial court but now
want to cause his present motion an issue to~.be an successive
writ. Lets keep in main here, that Mr. Napper trial Judge also
remain him back into court on bench warrant with a recommendation
for a new trial supported by the trial court evidence.
Althought the petitioner here cannot be chaliegging a prio£ rmerit, becasue it was never consider or file by the Court Of
Criminal Appeal as was ail his other ground of error. Mr. Napper
Brady and Actual Innoccence claim was not invole in his (5)Grounds of error, but should have.
STAHDABD_QE_BEYIEHi_
Procedural due Process direct tnat when a district court
denies rule 60(b) Motion is require to obtain a COA appeal the
denial of his rule 60(b) Motion. See CANALES v. QUARTERMAN, 507 K
F.3d 887, (5th Cir. 2007), to suceed on a rule 60(b) motion,
the petitioner must not be challaengin a prior merit based
ruling, 626 F.3d842, 846 (5th Cir.2010): Gonzales v.Crosby, 545
U.S. 524, LVED.2d 480 (2005). Also, rule 60(b) motiom is not to t
be treated as a second or successive petiton. PHELPS v. ALAMEDIA
569 F. 3d,1120, (9th Cir. 2009).
Fedral Rule dF Civil Procedure, Rule 60(b) Motion for relief
from judgment or orders allows party to seek reief from a final
judgement or order
requestingreopening of thier habeas corpus »*
under liminted set of circumstance including fraud, mistake and n
newly discovered evidence. LILJEBERG V. HEALTH SERVICE ACUIST0N
C0RP, 108 Sc. 2194, (1988), Garcia V2 Thaler, 793 F.SUPP 894,
(W.D TEX. 2011).

(19).

If all of thse court would apply the exceptional rules to
ffiilERAL RULES AS WELL, IT WOULD BE ABLE TO SEE IN Mr. Napper
motion all of the following cases of these violation that
refer to his trial dist^court Judge ruiiing recommending him
a new trial becasue the state court has finally decided that
he could have not gotten a fair trial after all the dna
ample aleged in connecting him to this crime was destroyed
denying his constituionai right to that evidence, and to in­
dependant have it tested by the defense who has clearly denied t
that those sample did notmigitch him, but could have found the ^
man who could have actually commented this crime. As for as
the defense know, thier may have never " been any sample in
this case from thestart espescially if the state is saying thatthey ws his dna semen sperm swab. The victim makes this clear
becasue he did not identify Mr. Napper in the present of his
trial.and the victim Mr. Eric Talton clearly testified at trial
that he saw his victim all day and night.
Again Mr. Napper will show this coutt concerning his claim to —
Brady Violation if these court read his motion, non of these
reason for denial of his motion can first make any excuse for
any court to brake the constitution or provide a rule to allow
any appeal court to excuse a defendant guaranteed-right to any
due process violation in the United State, even if it was a
procedural defult','. a failure to file in a court of appeals on
or after time.
3RA^Y_yS._MARYLANp_CLAIM/EXCEPTI0NS
TO SUCCESSIVE WRIT RULE PROVISION

See Jean V. COLLINS, 221 F.3d 56, (4th Cit), When due pro­
cess violation involes the fhfea&tate failure to provide a
PROEDURAL SAFE GUARD, thdt comprises one element of a fair trial
Suchas a right to exculpatory Evidnce, the concurrence thanks
the REMDY is a new trial becasue of the constitutional injury
can deprivation of liberty without due process of law. Mr. Napper
the petitioner here condends like in jean,.the harm that Jean
endured was the deprivation of his liberty without due process .n
of law, not merely the denial of the free standing procedural
interest in him obtaining exculpatory evidence.

(20).

CQEGLUSIQtJZBMDY-YIQALTIQEL
DID_THE_STATE_CQURT_HAYE_A_DUTY_TQ_E'RESERYE_EYIDENCE..
IN_ACCORDING_TO_BBADY_V._MARYLAND_CLAIM'l WHICH, COULD
ALLOW_THIS_COyRT_TO_CONSIDER_MR._NAPPER_MOTION_NOT
BEING_A_SUGGESSIVE_QNE_BEGAySE_IHIS_SyCH_IY£E_QE’_DUE
PROCESS VIOLATION WILL

Hie petitioner reminds this court that they are not bound
by the interpation not supported by the record in state
ourt pleading but with respect to Section 2254 (d)(8), 28
U.S.C. 2254 (d) providing that a Federal Appeal's Coufct
Circuit are not bound by a lower court interpetation of the
relevent constitionai law as the district court for dismissal
of a petition successive writ or motion
(1). See ANDERSON V. STATE, 268 SW.2d 130, (TEX. APP. 2008)
(a). IN ORDER TO HAVE A MEANINGFUL OPPORTUNITY TO PRE­
SENT A COMPLETE DEFENSE, ANDERSON SHOULD HAVE BEEN
PERMITTED TIME TO INDEPENDENTLY EVAUATE THE DNA EVIDNECE AND TO PREPARE FOR THE CROSS EXAMINATION OF
THE CHEMIST THAT WOULD BE TESTIFYING.
(2). See DAMN V. STATEN 88 SW.2d 102, (TEX. APPr~L994)
(2). NAPPER CONTENDS THAT THE SUCCESSIVE RULE IS UNACEPTABLE, WHEN DUE PROCESS GUARANTEED UNDER OUR FEDRAL
CONSTITUTION DEMAND THE STATE PROVIDE EXCULPATORY
EVIDENCE TO THE ACCUSED REOUEST
(B). NOR WAS THE PHYSICAL EVIDENCE EVER DELIVERED TO THE
APPELLANT SO THAT HE COULD CONDUCT INDEPENDANT TEST­
ING
(3). See THOMAS V. UNITED STATE, 343 F.2d 49, (9th CIR)
(a). PROSECUTOR FAILURE TO DISCLOSE EVIDENCE EQUALLY
AVAIABLE TO THE DEFENSE MAY CONSTITUTION OF A DUE
PROCESS. SUCCESSIVE RULE DONOT APPLY FOR THIS CASE.
(b). THE EQUAL PROTECTION CLAUSE OF THE FOURTEENTH AMENMENT PROVIDE THAT NO STATE DENY ANY PERSON WITH IN
ITS JURISDICTION THE EQUAL PROTECTION OF THE LAWS.
U.S. CONST. AMEND. XIV. I, AND THIS INCLUDES BRADY
BECAUSE BRADY IS A PROTECTED CLASS AND CLASS SAFE,
902 SUPP. 2d 501.
WHICH IS AN EXCEPTION TO THE SUCCESSIVE RULt* (4). See LEVIN v. KATZeNBACH, 363 F?2d 287 (1996).
(a). WHERE THE PROSECUTOR NO DOUBT AT OR BEFORE TRIAL AND
ITNGOOB'FAITH DID NOT DISCLOSE TO THE DEFENSE INF0R_
FORMATION IN ITS POSSESION HAD SOME BEARING ON THE
CASE WAS A DUE PROCES VIOLATION UNDER BRADY. THIS
TYPE OF VIOLATION IS AN EXCEPTION TO THE SUCCESSIVE
RULE OR ANY OTHER RULE.

(21).

(c). It is not as if the presence of a procedural default DE
PRIVE THE FEDERAL COURT OF JURISDICTION], for this court has
maded it clear that in the habeas context, a procedural default t
that is a ciiticl failure to comply with the state procedural
law (IS NOT A JURISDISTIONAL MATTER). Also ssee LAMBRIT V.
SINGLETARY 117 S.ct 1517, COLEMAN 111 S.ct 2554-2555.
(d). The parties themself niether raised nor argue the proce­
dural default issue in the court of Harris County District
Court and nor was the given any opportunity from none of the ——
appeals court to prepare for this arguement on the issue,
However, all of these courts mugt have been under the opinion—
and the language in fehitf opinion suggested that it had _
thought that, once it had noticed the possibility of a proce­
dural default, it was require to raise the matter on its own.
Mr. Napper further arguement is that he has the right to file
his
his two claims in the lower court as we as the United State
Supreme Court for this court to reverse itself.
(14). See SANDERS V. UNITED STATE, 83 S.ct 1068
(a). NO MATTER HOW MANY APPLICATIONS.FOR FEDERAL RELIEF BY HA*
BEAS COURPUS OR MOTION UNDER U.S.C 2255 A PRISONER HAD
MADED, A SUBSEQUENT APPLICATION FOR SUCH RELIEF (CANNOT)
BE DENIED ON THE GROUND THAT A PRIOR APPLICATION HAS BEEN PRE­
VIOUSLY HBRD AND DETERMIND IF THE SAME GROUND WAS EARLIE PRESENTED BUT NOT ADJUICATED ON THE MERITS.
Mr. Napper two grounds was filed, but the court of criminal
appeals back in 2012 in his prior writ of habeas corpus for now
legal reason refuse to allow him to further filed them in his
claim to be consider for review.
Also, 28 U.S.C 2255 is not require to in Sanders limit his de­
cision on Mr. Napper's motion to grounds narraowly alleged, or
deny the motion out of hand because the allegations are vague,
conclusional, or iriartitically expressed, (BUT IS FREE TO ADOPE \
ANY APPROPRIATE MEANS FOR INQUIRY INTO THE LEGALITY OF THE PRI­
SONER! S DETENTION) INORDER TO ASCERTIAN ALL POSSIBLE GROUND
UPON WHICH THE PRISONER MIGHT CLAIM TO BE ENTITLED TO RELIEF;
THE DISPOSITION OF ALL SUCH GROUNDS MAY THAN BE SPREAD ON THE
FILES AND RECORDS CONLUSIVELY SHOWTHAT THE PRISONER IS ENTITLE
TO NO RELIEF ON ANY SUCH GROUNDS,.NO HEARING ON A SECOND OR
SUCCESSIVE MOTION IS ON SUCH GROUNDS.
Also see here in SANDERS V. UNITED STATE, The courts reasoned
that it would be unfair to compel the Habeas Applicant, tipically (UNLEARNRD IN THE LAW AND UNABLE TO PROCURE LEGAL ASSIS_
TANCE I DRAFTING HIS APPLICATION), to plead an elaborated nega­
tive .

(22).

1

Also in SANDERS V. UNITED STATE, THE (SNADERS COURT), STATES ~
TO RENDER THE JUDGEMENT VULERABLE TO COLLATERAL ATTACT, THE COURT
SHALL VACATE AND SET THE JUDGEMENT ASIDE AND SHALL DISCHARGE THE
PRISONER OR RESENTENCE HIM OR GRANT A NEW TRIAL OR CORRECT THE
SENTENCE AS MAY APPEAR APPROPRIATED.
(d,5). ALSO SEE HARVEY V. HORAN, 278 F.3d 370, (4th Cir. 2002).
(a). HARVEY RECIEVED A FAIR TRIAL AND WAS GIVEN THEGOPPORTUNITY TO TEST THE DNA EVIDENCE DURING HIS TRIAL USING
THE BEST TECHNOLOGY AVILABLE AT THE TIME.
(b). OUR SISTER CIRCUIT HAVE HELD THAT THE DISMISSAL OF A
HABEAS CORPUS PETITION FOR PROCEDURAL DEFAULT IS A DIS­
MISSAL ON THE MERITS' FOR PURPOSES OF DETERMINING WHETHER
HABEAS PETITION IS SUCCESSIVE.
(c). HAVEY SEEK AS IN MR. NAPPER CASE TO SATISFY THIS RE- r
QUIREMENT BY CONTENDING THAT THE DENIAL OF HIS CONTIz
TUTION IS A VIOLATION OF HIS RIGHT UNDER DUE PROCESS
CLAUSE OF THE FOURTHEENTH’AMENDMENT.
(d). THE DISTRICT COURT IDENTIFIED AND FOUND A DUE PROCESS
DEPRIVATION UNDER BRADY V. MARYLAND 83 S.CT 1194, MORE­
OVER THE COURT FOUND THAT HARVEY HAS A DUE PROCESS RIGHT
TO THE ACCESS TO THE EVIDENCE, AS SUCH EVIDENCE COULD
HAVE CONSTITUTE MATERIAL:EXCULPATORY EVIDENCE.
(e). THE BRADY RULE IS GROUNDED IN A DEFENDANT'S RIGHT TO A
FAIR TRIAL. ALSO IT IS CLEAR THAT THE HABEAS IS AVAIL­
ABLE
TO REVIEW ONLY JURISDICTIONAL DEFECTS, OR DENIAL
APE
OF ONES FUNAMENTAL OR CONSTITUTIONAL RIGHTS.
Mr. Napper also asking this court to keep inmind under OSNORME
V. DIST. ATTORNEY'S OFFICE, 521 Fd 1118 (9th Cir. 2008), AND
COULSON V. U.S, APP.LEXIS 30688, (2001), THAT WHILE BRADY EN­
SURES A FAIR TRIAL, THE DEFENANT"S RIGHT TO PRE-TRIAL DISCLOSURE
UNDER BRADY IS NOT CONDITIONED ON HIS ABIITY TO DEMONSTRATE THAT
HE WOULD OR EVEN PROABLY PREVAIL AT THE TRIAL IF THE EVIDENCE
WERE DISCLOSED, AND THAT COULSON ENSURE IN BRADY CLAIM, THAT TEST
FOR MATERIALITY IS NOT A SUFFICIENCY OF THE EVIDENCE TEST.
AlsoMr. Napper contends like in KOWALK V. SCUTT 712 F. SUPP.
2d 657, 2009, and noted under YOUNGBLOOD, the question is not
whether the police was motiavated by badfaith as the trial courts
in Napper case is claiming, but motiavated by badfaith as to
whether the particular ITEMS of evidence (NOT MAINTAINED) by the
state was destroyed in badfaith.
The petitoner Mr.Napper also lead this?court to be remian, the
movant argue that he is innocence of this charges for which he
was : .m
~

(23).

was imprisoned for, and the records and documents on file are
judicially noticeable prosuant to rule 201 Tex. R. Evid. and
will establish movant Actual Innocence.
As % have concluded here by showing some of the cases which
are clearly exceptions to the default Judgements rules if in fact
one has be eshablish by any of the lower courts ruling without
first reviewing Mr. Rapper motion.
The bottlemline here, Federal Court retain the authority to
issue -this petitioner motion in cases of (FUNDAMENTAL MISCARRIAGE
OF JUSTICE). If the petitioner canot show cause cause the failure
to raise claim in an earlier petition or if (RAISING THE SAME
CLAIM THAT WAS NOT ADUICATED) on the merit, petitioner amy never—
FHelesS be excuse if he or she cannot show that a fundammental
miscarriage of justice would result from a failure to entertain
the claim. See MURRAY V CARRIER, 106 S.CT 2639 (1986)
Also in Murray when a constitutional violation has proably
resulted in the conviction of one who is actually innocence, a
Federal Habeas Court (MAY GRANT THE WRIT OR MOTION EVEN IN THE
ABSENCE OF A SHOWING OF CAUSE FOR THE PROCEDURAL DEFAULT.
CONCLUSION
The petitoner have attach EXHIBITS FROM (ARTHUR (G)
This petition presents an ideal for analyzing the Brady v.
Maryland and Actual Innocence, Pro Se Judicail notes to his L
claims.
Lawrence Napper rspectfully asks this court to grant a
motion of certiorari.
Respectfully submitted thi§,

ay of

September22020,
/r
ER//tf)CJ *

By^

LAWRENCE JAMES /»
MI
UNIT
26&ZT FM 2054
TENNESSEE COLONY, TEXAS 25886

(24).

356

